                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Removal of Categories I and II Special
Nuclear Material from Sandia National
Laboratories-New Mexico




DOE/IG-0833                                   January 2010
                              Department of Energy
                                 Washington, DC 20585

                                    January 15, 2010


MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Inspection Report on “Removal of Categories I
                          and II Special Nuclear Material from Sandia National Laboratories-
                          New Mexico”

BACKGROUND

The Department of Energy's (DOE’s) Sandia National Laboratories-New Mexico
(Sandia) develops science-based technologies in support of national security in areas such
as nuclear weapons, nonproliferation, military technologies, and homeland security.
Sandia's primary mission is ensuring that the U.S. nuclear arsenal is safe, secure, and
reliable and can fully support the Nation's deterrence policy. Part of this mission includes
systems engineering of nuclear weapons; research, design, and development of non-
nuclear components; manufacturing of non-nuclear weapons components; the provision
of safety, security, and reliability assessments of stockpile weapons; and the conduct of
high-explosives research and development and environmental testing. Sandia
Corporation, a subsidiary of Lockheed Martin Corporation, operates Sandia for the
National Nuclear Security Administration (NNSA).

On May 7, 2004, the Secretary announced that the Department would evaluate missions
at DOE sites to consolidate Special Nuclear Material (SNM) in the most secure
environments possible. The Administrator of the NNSA said that this effort was a key
part of an overall plan to transform the nuclear weapons complex into a smaller, safer,
more secure, and more efficient national security enterprise. In February 2008, Sandia
was the first site to report it had reduced its on-site inventory of nuclear material below
"Categories I and II" levels, which require the highest level of security to protect material
such as plutonium and highly enriched uranium.

The Office of Inspector General initiated an inspection to determine if Sandia made
appropriate adjustments to its security posture in response to the removal of the
Categories I and II SNM.

RESULTS OF INSPECTION

We found that Sandia adjusted its security posture in response to the removal of
Categories I and II SNM. For example, security posts were closed; unneeded protective
                                            2

force weapons and equipment were excessed from the site; and, Sandia's Site Safeguards
and Security Plan was modified.

We also found that some highly enriched uranium in a complex material configuration
was not removed from Sandia. This material was designated as Category III material
using a methodology for assessing the attractiveness of complex materials that was not
specifically addressed in any current DOE directive. Although DOE and NNSA officials
believed that this designation was appropriate, the methodology used to support this
designation had not, as of the time of our review, been incorporated into the DOE
directives system. Historically, the Department has considered the categorization of
SNM to be an important national security and public policy issue. Consequently, we
believe that expedited action should be taken to formalize this methodology in the DOE
directives system and that it be disseminated throughout the Department of Energy
complex.

MANAGEMENT REACTION

In comments to a draft of this report, the Office of Health, Safety, and Security (HSS)
concurred with the report recommendation and identified corrective actions that have
been and will be taken to address the recommendation.

We consider HSS’ comments generally responsive to our report recommendation.
However, HSS raised certain issues regarding the distinction between the publication of a
“guide” and the promulgation of “policy.” While we recognize the point that HSS was
making and understand the need to consider the practical impact of these kinds of
distinctions, we believe the position that we have taken is appropriate. This matter is
discussed more fully in the attached report.

In comments to a draft of this report, NNSA generally agreed with the report and
recommendation. We consider NNSA’s comments generally responsive to our report
recommendation.

Management’s comments are provided in their entirety in Appendix B of the report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief Health, Safety and Security Officer, Office of Health, Safety and Security Office
    Chief of Staff
    Manager, Sandia Site Office
    Director, Office of Internal Review (CF-1.2)
REMOVAL OF CATEGORIES I AND II SPECIAL NUCLEAR
MATERIAL FROM SANDIA NATIONAL LABORATORIES-NEW
MEXICO

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives    1

              Summary                        1


              DETAILS OF FINDINGS

              Background                     3

              Categorization of SNM          3


              RECOMMENDATION                 5


              MANAGEMENT COMMENTS            6


              INSPECTOR COMMENTS             6


              APPENDICES

              A. Scope and Methodology       7

              B. Management Comments         8
Overview

INTRODUCTION AND   The Department of Energy's (DOE’s) Sandia National
OBJECTIVES         Laboratories-New Mexico (Sandia) develops science-based
                   technologies in support of national security in areas such as nuclear
                   weapons, nonproliferation, military technologies, and homeland
                   security. Sandia's primary mission is ensuring that the U.S.
                   nuclear arsenal is safe, secure, and reliable and can fully support
                   the Nation's deterrence policy. Part of this mission includes
                   systems engineering of nuclear weapons; research, design, and
                   development of non-nuclear components; manufacturing of non-
                   nuclear weapons components; the provision of safety, security, and
                   reliability assessments of stockpile weapons; and the conduct of
                   high-explosives research and development and environmental
                   testing. Sandia Corporation, a subsidiary of Lockheed Martin
                   Corporation, operates Sandia for the National Nuclear Security
                   Administration (NNSA).

                   On May 7, 2004, the Secretary announced that the Department
                   would evaluate missions at DOE sites to consolidate Special
                   Nuclear Material (SNM) in the most secure environments possible.
                   The Administrator of the NNSA said that this effort was a key part
                   of an overall plan to transform the nuclear weapons complex into a
                   smaller, safer, more secure, and more efficient national security
                   enterprise. In February 2008, Sandia was the first site to report it
                   had reduced its on-site inventory of nuclear material below
                   "Categories I and II" levels, which require the highest level of
                   security to protect material such as plutonium and highly enriched
                   uranium.

                   The Office of Inspector General initiated an inspection to
                   determine if Sandia made appropriate adjustments to its security
                   posture in response to the removal of the Categories I and II SNM.

SUMMARY            We found that Sandia adjusted its security posture in response to
                   the removal of Categories I and II SNM. For example, security
                   posts were closed; unneeded protective force weapons and
                   equipment were excessed from the site; and, Sandia's Site
                   Safeguards and Security Plan was modified.

                   We also found that some highly enriched uranium in a complex
                   material configuration was not removed from Sandia. This
                   material was designated as Category III material using a
                   methodology for assessing the attractiveness of complex materials



Page 1                                   Removal of Categories I and II Special
                                         Nuclear Material from Sandia National
                                         Laboratories-New Mexico
         that was not specifically addressed in any current DOE directive.
         Although DOE and NNSA officials believed that this designation
         was appropriate, the methodology used to support this designation
         had not, as of the time of our review, been incorporated into the
         DOE directives system. Historically, the Department has
         considered the categorization of SNM to be an important national
         security and public policy issue. Consequently, we believe that
         expedited action should be taken to formalize this methodology in
         the DOE directives system and that it be disseminated throughout
         the Department of Energy complex.




Page 2                                                      Summary
Details of Findings

BACKGROUND            DOE follows a graded safeguards program for nuclear material.
                      Under this concept, a safeguards program must provide the greatest
                      relative amount of control and accountability for the types and
                      quantities of SNM that can be most effectively used in a nuclear
                      explosive device. SNM is designated by "Attractiveness Levels"
                      and "Categories." The Attractiveness Levels, which are designated
                      A through E, address the chemical and physical form of the
                      material (weapons, pure products, high-grade material, low-grade
                      material, and all other material). The Categories, which are
                      designated I through IV, are based on the Attractiveness Level and
                      the amount and type of nuclear material (i.e., Pu, U-233, U-235,
                      Np-237, and Am-241/243).

                      Since 1994, the DOE policy applicable to the designation of SNM
                      for safeguards purposes has been promulgated through DOE
                      orders, manuals, and guides. For the purposes of determining
                      SNM Attractiveness Levels and Categories, DOE's current policy
                      is found under DOE Order 470.4A, "Safeguards and Security
                      Program," and the associated Manual, DOE M 470.4-6, Change 1,
                      dated August 26, 2005. Under this Manual, the "Graded
                      Safeguards" table provides specific information on the chemical
                      and physical form of SNM, as well as the amount and type of
                      SNM, for use in determining SNM Attractiveness Levels and
                      Categories. This Manual cancelled a DOE guide which had
                      addressed the use of another methodology, "weight percent
                      criteria," for determining SNM Attractiveness Levels and
                      Categories. The "weight percent criteria," when it was part of the
                      DOE directives system, had allowed DOE to consider the percent
                      by weight of SNM in addition to the chemical/physical form and
                      the amount/type of SNM found in the "Graded Safeguards" table.
                      However, current DOE directives do not specifically address this
                      methodology for use in determining SNM Attractiveness Levels
                      and Categories.

CATEGORIZATION OF     We found that Sandia adjusted its security posture in response to
SNM                   the removal of Categories I and II SNM. For example, security
                      posts were closed; unneeded protective force weapons and
                      equipment were excessed from the site; and, Sandia's Site
                      Safeguards and Security Plan was modified.

                      We also found that some highly enriched uranium in a complex
                      material configuration was not removed from Sandia. This
                      material was designated as Category III material using a




Page 3                                                             Details of Findings
                           methodology for assessing the attractiveness of complex materials
                           that was not specifically addressed in any current DOE directive.

Annular Core Research Sandia maintains an Annular Core Research Reactor (ACRR).
Reactor Fuel          The reactor fuel is uranium, enriched to 35 percent U-235 with
                      21.5 weight-percent U02 and 78.5 weight-percent BeO. In a May
                      16, 2006, e-mail to Office of the Associate Administrator for
                      Defense Nuclear Security (NA-70), the Sandia Site Office (Site
                      Office) stated that there was confusion with regard to the
                      Attractiveness Level for the nuclear material in the ACRR. The
                      Site Office stated that the current order/manual did not make any
                      reference to "weight percent criteria" in determining Attractiveness
                      Levels and the current manual could not stand on its own as a
                      source for determining Attractiveness Levels. The Site Office
                      requested policy clarification and guidance that could be used to
                      direct Sandia in determining the Attractiveness Levels for the
                      ACRR.

                           In an e-mail dated May 17, 2006, an official from NA-70 told the
                           Site Office that they could use the "weight percent criteria" in
                           determining Attractiveness Levels. This official stated that "This
                           is not a new issue - as soon as they deleted all references to the
                           Guide to take care of the 20-50% isotopic enrichment issue in the
                           Safeguards Table (which conflicted with the Guide), they
                           essentially threw out the baby with the bath water as the entire
                           Guide then became defunct." This official stated that the Office of
                           Health, Safety and Security (HS-70) was working on policy
                           revisions, but policy revisions would take significant time.

                           In a June 16, 2006, Site Office memorandum, the Site Office
                           acknowledged that the August 26, 2005, publication of DOE M
                           470.4-6 removed all references to the Guide which contained the
                           “weight percent criteria.” The Site Office stated that, “Most
                           recently, this resulted in the categorization of the Annular Core
                           Research Reactor (ACRR) as a Category IC SNM target.” This
                           categorization was based on the "Graded Safeguards" table in DOE
                           M 470.4-6, Change 1, and a March 23, 2005, NA-70 policy
                           memorandum stating that uranium metal and oxides enriched to
                           greater that 20 percent in the U-235 isotope should be considered
                           material of Attractiveness Level B and C, respectively. The Site
                           Office memorandum went on to state that NA-70 had since
                           determined that the ACRR material was Attractiveness Level "D"
                           versus "C," resulting in the ACRR being designated as a Category
                           IIID target.




Page 4                                                                  Details of Findings
Policy Revisions   The designation of the ACRR fuel as a Category IIID target
Needed             was based on the use of the “weight percent criteria.” However,
                   DOE O 251.1C, Departmental Directives Program, Section 4d(6),
                   Unofficial Guidance, states that “Existing requirements that cross
                   organizational lines and apply to contractors but were not
                   developed and promulgated through the formal directives process
                   are to be considered invalid unless/until they have been reviewed
                   and adopted through that process.”

                   The Deputy Director, Office of Security Policy, Office of Health,
                   Safety and Security (HS-70), told us that the guide containing the
                   “weight percent criteria” was cancelled because certain aspects of
                   the guide were no longer consistent with Departmental policy.
                   However, this official said that the cancellation of the guide was
                   unrelated to the use of weight percent in determining material
                   attractiveness. This official stated that the use of weight percent
                   remained a common and acceptable technical technique in the
                   Material Control and Accountability community that would soon
                   become an even more important technique if proposed revisions to
                   the use of the Graded Safeguards Table were published. Further,
                   this official stated that a working group was formed in 2008 to
                   revise the manual based on current security considerations and that
                   the revised policy was expected to make even greater use of weight
                   percent.

                   In comments to a draft of this report, the Chief Health, Safety and
                   Security Officer confirmed that the “weight percent criteria” is an
                   authorized methodology for determining the category and
                   attractiveness level of SNM. However, as of the date of our review
                   and despite the passage of considerable time, the use of the
                   "weight percent criteria" methodology still had not been
                   formalized in the DOE directives system, which is the mechanism
                   by which Departmental policy/requirements are captured and
                   disseminated. Consequently, we believe that expedited action
                   should be taken to formalize this methodology in the DOE
                   directives system so that the designation of the ACRR fuel as
                   Category IIID is on a firm, recognizable policy foundation,
                   consistent with U. S. national nuclear requirements.

RECOMMENDATION     We recommend that the Chief Health, Safety and Security Officer,
                   Office of Health, Safety and Security, ensures that action is taken
                   to formalize the use of the “weight percent criteria” in the DOE
                   directives system and that revised guidance be disseminated
                   throughout the Department of Energy complex.




Page 5                                                            Recommendation
MANAGEMENT   In comments on a draft of this report, the Office of Health,
COMMENTS     Safety, and Security (HSS) concurred with the report
             recommendation. Management identified corrective actions that
             have been and will be taken to address our recommendation.

             In comments on a draft of this report, NNSA generally agreed with
             the report and recommendation.

             Management’s comments are included in their entirety at
             Appendix B.

INSPECTOR    We consider HSS comments generally responsive to our report
COMMENTS     recommendation. However, HSS stated that the report seemed to
             view publication of a guide as establishing requirements, noting
             that a guide is explicitly not policy. We would like to note that
             published manuals “supplement other directives, laws, regulations,
             or other requirements by providing more instructions or details on
             how the provisions of those directives or laws must be carried out
             throughout DOE.” The Guide associated with the previous Manual
             had provided preferred, non-mandatory supplemental information
             about the acceptable methods to meet requirements. When the
             Manual cancelled the Guide, the acceptable methods which
             included “weight percent criteria” were also cancelled.

             We consider NNSA’s comments generally responsive to our report
             recommendation.




Page 6                                        Management and Inspector
                                              Comments
Appendix A

SCOPE AND     We conducted the majority of the fieldwork for this inspection
METHODOLOGY   between February and March 2009. Our review included
              interviews with Sandia Site Office officials, NNSA and DOE
              Headquarters representatives, and Sandia National Laboratory
              personnel. We reviewed and evaluated DOE and NNSA policies,
              the Site Safeguards and Security Plan, and related security
              documentation. We also toured Sandia’s Technical Area V.

              Pursuant to the “Government Performance and Results Act of
              1993,” we reviewed Sandia’s performance measurement processes
              as they relate to the removal of SNM from Sandia.

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency, currently known as the Council of the
              Inspectors General on Integrity and Efficiency (CIGIE).
              .




Page 7                                               Scope and Methodology
Appendix B




Page 8       Management Comments
Appendix B




Page 9       Management Comments
Appendix B




Page 10      Management Comments
                                                                    IG Report No. DOE/IG-0833

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
